0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Amici Curiae
27 Lay Roman Catholics in Support of Respondents in
19-123, Sharonell Fulton, et al. v. City of Philadelphia,
Pennsylvania, et al., were sent via Two Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Two Day Service and e-mail to the following parties
listed below, this 14th day of August, 2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org

Counsel for Petitioners
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org

Counsel for Intervenor Support Center for Child
Advocates and Philadelphia Family Pride

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

II www.beckergallagher.com
(800) 890.5001

· Suite 102

Franklin Square
1300 I Street, NW, Suite 400E

· Cincinnati, Ohio 45249

Washington, DC 20005

8790 Governor's Hill Drive

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com

Counsel for Respondents City of Philadelphia,
Department of Human Services for the City of
Philadelphia, Philadelphia Commission on Human
Relations
James K. Riley
Counsel of Record
145 Franklin Avenue
Pearl River, NY 10965
(845) 653-1722
jrjrprny@gmail.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 14, 2020.

DonnaJ.Wo
Becker Gallagher Le al ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date: ~/~t;;;efO

ey o.

Notary Public
[seal]

JOHN D. GALLAGH R
Nota,y Pub , Stale ot Otilo
My Commission Expires
February 14, 2023

